U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Brandon Lamonte Sorenson v. United States of America,
S.Ct. No. 20-7099

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 1,
2021, and placed on the docket on February 10, 2021. The government’s response is due on
March 12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7099
SORENSON, BRANDON LAMONTE
USA

RACHEL ANN JULAGAY
FEDERAL DEFENDERS OF MONTANA
104 2ND STREET SOUTH
SUITE 301
GREAT FALLS, MT 59404

